<html>
<title> - WOMEN AND TECHNOLOGY:. INCREASING OPPORTUNITY AND. DRIVING INTERNATIONAL DEVELOPMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                         WOMEN AND TECHNOLOGY:
                       INCREASING OPPORTUNITY AND
                   DRIVING INTERNATIONAL DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2015

                               __________

                           Serial No. 114-121

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
97-633PDF                    WASHINGTON : 2015                        
                                 
                                
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5532253a15362026213d3039257b363a387b">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Geena Davis, founder and chair, Geena Davis Institute on 
  Gender in Media (special envoy for women and girls, 
  International Telecommunication Union).........................     4
Ms. Sonia Jorge, executive director, Alliance for Affordable 
  Internet.......................................................     6
Ms. Joyce Warner, senior vice president and chief of staff, 
  International Research and Exchanges Board.....................    16

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Sonia Jorge: Prepared statement..............................     9
Ms. Joyce Warner: Prepared statement.............................    18

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
Ms. Geena Davis: Prepared statement..............................    47
The Honorable Alan S. Lowenthal, a Representative in Congress 
  from the State of California: Prepared statement...............    51

 
                         WOMEN AND TECHNOLOGY:.
                       INCREASING OPPORTUNITY AND.
                   DRIVING INTERNATIONAL DEVELOPMENT

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:12 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. We will ask all of the members to take 
their seats. This hearing is called ``Women and Technology: 
Increasing Opportunity and Driving International Development.'' 
And around the world, women and girls are, frankly, the hardest 
hit by poverty. I think people realize that, but at the same 
time, empowering women can be the best way to lift them and 
their families out of that poverty. As our guest, Geena Davis, 
has said, ``believing in yourself is the greatest gift.''
    Today, few tools have the potential to empower women and 
girls like the Internet. Whether it is access to online 
education, or whether it is job opportunities, or expanding 
that social network, the Internet can dramatically increase a 
woman's access to information, dramatically increase her 
opportunity for her and her family.
    A recent survey in four developing countries found that of 
those women who reported using the Internet, 75 percent said 
they used the Internet ``to further their education.'' Many 
women surveyed also noted that the Internet and other mobile 
applications dramatically reduced the time and dramatically 
reduced the cost associated with tasks like learning about 
health concerns, arranging transportation, borrowing and saving 
money. Just ask the female fisherman in Kenya who now uses a 
popular mobile service to store and transfer money using just 
her cell phone that protects her business savings, protects her 
from theft. It enables her to spend her money as she chooses. 
Frankly, it empowers her.
    Yet, while we take the Internet for granted here, more than 
4 billion people, two-thirds of the world's population, lack 
access to that Internet. And women are more likely to be 
offline than men. Across the developing world, that is 200 
million fewer women than men that have access to the Internet. 
And the disparity is particularly great in Asia and in the 
Middle East, and in sub-Saharan Africa, where women are half as 
likely as men to be online.
    This means women are being excluded from one of the most 
powerful drivers of personal and economic opportunity of all 
time. And this is a problem for more than just those women who 
are left out. It means that families, communities, states, 
institutions, are all held back as well.
    Study after study has shown that women spend more of their 
income on their families and communities, prioritizing things 
like what, food, medicine, education, that then improves the 
outcomes for their children. And in terms of broader economic 
growth, that means that it reduces the disparity in women's 
online access, and--what would the GDP boost be if we were able 
to do this to the portions of the world that do not have that 
kind of access? It would be $4 billion to $5 billion.
    So it seems clear that failing to include women in the 
technology revolution is a big mistake. Likewise, failing to 
consider technology in our aid and in our diplomacy remains 
another costly oversight. The Internet is fast becoming as 
essential to a country's economic growth as electricity was, as 
ports are, as the rule of law is, and that is why the committee 
is developing legislation to ensure Internet access is a 
priority in U.S. development projects. For one, our aid 
agencies could better coordinate to lay fiberoptic cable under 
roads being constructed in the developing world. That is kind 
of a no-brainer.
    In addition to having equal access to technology, it is 
important for women to have equal access to creating that 
technology. Globally, there are fewer women than men in 
science, in technology, in engineering, in math, in these STEM 
careers. However, there are some countries that have succeeded 
in having at least 50 percent of their STEM degrees awarded to 
women. Countries like the United Arab Emirates, Bulgaria, Oman, 
are pushing in that direction. They have 50 percent. We need to 
address what is holding women back from entering the sciences 
in so many other countries, including ours, I will add.
    The Internet has changed the way that we buy, that we sell, 
that we educate, that we socialize. It has transacted more 
international commerce than any other marketplace, with 
trillions of dollars pumped across the net daily. It is a 
tremendous opportunity, but it is only an opportunity for those 
who have access to it. This hearing will help us understand 
what is needed so that more, especially women, more people can 
take advantage of this revolutionary technology, and in the 
process, bring a better life for their families and communities 
and more opportunity and hope.
    So I now turn to the ranking member, Mr. Eliot Engel of New 
York, for his opening comments.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
calling this hearing. Let me welcome. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman--that is better--for calling this 
hearing. Let me welcome our witnesses to the Foreign Affairs 
Committee. Thank you for your hard work, and shining a light on 
what I view as an intersection of two issues critical to our 
foreign policy: The challenges facing women and girls as the 
growing reach of modern technology. I am looking forward to a 
good discussion. I would like to note that for the second time 
this month, our committee has a panel made up entirely of 
women. Two weeks ago, Assistant Secretary Patterson and 
Assistant Secretary Nuland were here testifying on the crisis 
in Syria, and today we have this distinguished group.
    It is amazing the way technology has changed the way we 
access numbers, respond to crises, or simply communicate with 
one another. Today, a coffee planter in East Africa with a 
smartphone can know what his produce is worth in London. A 
doctor anywhere in the world can pull up a patient's medical 
record with the push of a button. Classrooms with broadband 
access have a gateway to an incredible wealth of knowledge, 
information, and face-to-face connections with people a world 
away.
    Of course, technology can also be exploited for nefarious 
purposes. We know that ISIS has taken advantage of everyday 
encryption technology, and even video games to communicate and 
orchestrate attacks like the one in Paris. These abuses 
underscore why we need a full understanding of the way 
technology is growing and changing the global landscape, but 
they should not blind us to the fact that technology has 
brought massive benefits to billions of people around the 
world.
    At the same time, it is important to recognize that those 
benefits have not been evenly distributed. When we focus on 
access to technology, we see that women and girls are at a 
tremendous disadvantage, just as they are in so many other 
areas. Women in developing countries are 23 percent less likely 
than men to be online. In South Asia, the Middle East, and 
North Africa, the gap is nearly 35 percent. And in sub-Saharan 
Africa, it jumps to 45 percent.
    Those are really shocking statistics. Some of this 
disparity is due to structural economic inequality. The cost of 
technology can be prohibitive in places where women are not 
full participants in their economies. Some of these problems 
stem from other norms and ideas about women and girls that keep 
them as second-class citizens. For example, across much of the 
developing world, Internet cafes are the easiest way to get 
online. The constraints of childcare and responsibilities at 
home make this a difficult option for some women. Access to 
mobile technology could help break down these barriers but, 
around the world, 200 million fewer women than men own mobile 
phones today.
    It is unbelievable. But beyond these practical limitations 
in many countries, Internet cafes, and the Internet in general, 
are considered inappropriate for women and girls. Even in some 
of the most remote areas, Internet cafes are packed with boys 
and young men, but women and girls are left out. In Azerbaijan, 
only 14 percent of women have ever been online, 14 percent; 
while 70 percent of men have access to the Internet.
    In India and Egypt, 1 in 5 women reported believing that 
the Internet is inappropriate for them. Can you imagine that? 
Their reasons for not getting online range from concerns that 
their families would disapprove to not knowing how the Internet 
could benefit their lives. The reality, of course, is that 
access to technology could not only improve the lives of 
individual women, but could help to lift entire communities and 
entire countries. We know that keeping women and girls on the 
sidelines of society is a major drag on growth and prosperity. 
When women become full economic and political participants, the 
results are huge in terms of driving economic progress, 
improving health and education, and raising standards of 
living. Getting more technology in the hands of more women is a 
critical way to tap that potential.
    According to a recent study sponsored by Intel, getting an 
additional 150 million women online would add $13 billion to 
$18 billion to the combined annual GDPs of 144 developing 
countries. They would help countries become stronger, more 
stable partners on the world stage, and add fuel to the global 
economy. So the question isn't why should we break down the 
gender divide when it comes to technology, but how do we break 
down that divide?
    What education and training efforts will best provide women 
with the knowledge they need to use technology for their 
benefit? What kind of partnerships will help make technology 
more accessible and affordable? How do we address the out-of-
date taboo that technology is somehow inappropriate for women 
and girls? It is unbelievable. I hope our witnesses can offer 
their guidance in these areas, because I honestly believe that 
expanding access to technology could help solve so many 
problems.
    I thank you, again, for all you do, all of you. I look 
forward to your testimony and I yield back, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel. This morning we are 
joined by a distinguished panel. We have Ms. Geena Davis. In 
addition to acting in multiple critically-acclaimed movies, she 
is the founder and chair of the Geena Davis Institute on Gender 
in Media. She also currently serves as the special envoy for 
women and girls at the International Telecommunications Union 
at the United Nations.
    We have Ms. Sonia Jorge, she is executive director of the 
Alliance for Affordable Internet. She has over 20 years of 
experience in information and communication technologies in 
both the private and the nonprofit sector.
    And we have Ms. Joyce Warner, and she is senior vice 
president and chief of staff at the International Research and 
Exchanges Board. She had a long career of serving in various 
international organizations with a focus on women's health, and 
women's development.
    So, without objection, the witnesses' full prepared 
statements will be made a part of the record. Members here will 
have 5 calendar days to submit any statements or questions that 
you might have, or extraneous material that you want in the 
record of today's hearing. And so I would suggest that the 
witnesses would like to summarize their remarks. We will begin 
with Ms. Davis. Thank you very much, again, for your testimony 
today.

 STATEMENT OF MS. GEENA DAVIS, FOUNDER AND CHAIR, GEENA DAVIS 
   INSTITUTE ON GENDER IN MEDIA (SPECIAL ENVOY FOR WOMEN AND 
         GIRLS, INTERNATIONAL TELECOMMUNICATION UNION)

    Ms. Davis. Thank you. Thank you, Chairman Royce, very much, 
and Ranking Member Engel and committee members. It is a great 
honor to be invited to testify here at this hearing on ``Women 
and Technology: Increasing Opportunity and Driving 
International Development.''
    The efforts of the committee to ensure that women and girls 
are included and have the same opportunities as men and boys 
around the world are so appreciated, especially when it comes 
to the Internet. I have spent most of my adult life advocating 
for women and girls as a trustee for the Women's Sports 
Foundation, as chair of the California Commission on the Status 
of Women and Girls, as an official partner with U.N. Women, 
and, as the chairman mentioned, ITU's Special Envoy for Women 
and Girls and ICTs.
    The empowerment of women and girls is an issue I am 
extremely passionate about, and it is why I founded my research 
institute, which studies gender in children's media to help 
women and girls to be seen, and heard, and valued across the 
globe. Technology is having a huge impact on my community, the 
entertainment industry, in terms of how content creators are 
using digital platforms to not only serve as the gateway for 
delivering movies and television programming, but also for the 
creation of new ways of building global communities.
    And the Internet is having a profound impact on how the 
world engages with media, and can provide endless opportunities 
to empower women and girls, and to help create a systemic 
cultural shift by improving how they are portrayed and 
represented. These are the tools that will ultimately raise the 
value of women and girls in society.
    My institute has sponsored the largest body of research 
ever done on gender images in children's media, covering over a 
20-year span, and we worked side by side with the leading 
content creators to dramatically improve how women and girls 
are represented in media targeting children 11 and under. Our 
study of the careers of female characters in family films and 
in prime time in children's TV, conducted by Dr. Stacy Smith of 
the Annenberg School for Communication and Journalism, shows 
that women are missing from critical occupational sectors, such 
as the STEM fields.
    Out of nearly 6,000 speaking characters in family films, 
males held 84 percent of all STEM jobs. This calculates to a 
ratio of five male STEM characters for every one female STEM 
character. No female leads or co-leads were shown with STEM 
careers. Looking across the categories of computer science and 
engineering, the ratio of males to females in these areas was 
14.25 to 1. And in television, characters with STEM jobs were 
79 percent male, and 21 percent female.
    The vast gender inequality in media aimed at children is 
extremely significant as television and movie images wield 
enormous influence on how cultures perceive the value of women 
and girls, and in establishing societal norms. Improving these 
perceptions can be the real game-changer in achieving greater 
empowerment and participation of girls and women in the 
technology sector.
    My institute's tag line is: ``If they see it, they can be 
it.'' Technology has tremendous potential to transform women's 
and girls' lives, whether through STEM career choices, or by 
access to services such as e-health, e-education, e-commerce, 
e-banking, and other applications that can help women and girls 
address their day-to-day challenges. We need to vastly improve 
the gender divide. As the chairman pointed out, there were 200 
million fewer women online than men at the end of 2013. We need 
to bridge the opportunities gap. Women earned only 18 percent 
of U.S. computer science degrees. Women make up less than 20 
percent of the U.S. ITC workforce, and only 30 percent of the 
European ICT workforce. This cannot stand, given the predicted 
skills shortfall in the ICT sector of at least 2 million jobs 
globally by 2020.
    Encouraging women and girls to pursue careers in tech is 
critical to closing the economic gender gap. Studies from the 
ITU have demonstrated that companies that have a gender balance 
of women working in high-level positions on corporate boards 
have shown improved financial results. Women and girls will 
seek the skills to pursue these career opportunities if they 
can see other women in these roles and be inspired by them. The 
lack of real-world female role models in tech careers means 
that it is imperative for fictional female characters in STEM 
fields to be shown in entertainment media aimed at children.
    Technology, and particularly broadband, will be absolutely 
crucial for achieving all 17 of the U.N. sustainable 
development goals, and all three pillars of sustainable 
development: Economic development, social inclusion, and 
environmental protection. They need technology as key 
catalysts.
    We have the opportunity to ensure that women and girls are 
fully included in the expansion of the digital world, and that 
their voices and presence are shaping the agenda of meeting 
SDG-5, which addresses gender equality.
    Access to digital technology will be key to meeting this 
goal by providing women with the means to educate themselves 
and their children, to improve their own health and the health 
of their families and communities, to start their own 
businesses, to keep themselves safe, and to innovate to shape 
the future that they want.
    Because I am privileged to live in this country as the 
mother of three children, I can encourage them to engage in any 
type of interest that they may want to pursue. I want to see a 
world where all children have the same possibilities and 
opportunities; a world where women and girls are valued equally 
to men and boys, and have the freedom to pursue and achieve 
their dreams.
    Chairman Royce and Ranking Member Engel, once again, thank 
you very much for this opportunity to testify.
    [The prepared statement of Ms. Davis appears in the 
appendix.]
    Chairman Royce. Thank you. Ms. Jorge.

STATEMENT OF MS. SONIA JORGE, EXECUTIVE DIRECTOR, ALLIANCE FOR 
                      AFFORDABLE INTERNET

    Ms. Jorge. Thank you, Chairman Royce, Ranking Member Engel, 
distinguished members of the committee. Thank you for the 
opportunity to submit a statement to the committee on 
opportunities for driving international development through 
increasing women's access to technology.
    This issue is critical if we are to achieve the United 
Nation's Sustainable Development Goals, agreed in September of 
this year. The United States can and should play a leading role 
in driving this agenda forward. The Alliance for Affordable 
Internet, A4AI, is the world's broadest technology sector 
alliance working to reduce the cost of broadband in developing 
countries, and through high-level advocacy and direct in-
country engagement. The over 80 members or organizations of the 
alliance identify, research, and advocate for the policy and 
regulatory reforms needed to bring prices down and increase 
access to the Internet.
    The incredible growth of ICTs over the past decade has 
transformed Internet access into a force that is critical for 
sustainable global development. Indeed, President Obama 
declared earlier this year: ``The Internet is not a luxury. It 
is a necessity.'' Research has shown the benefits of broadband 
penetration. Investing in increasing broadband penetration in 
developing countries could lead to a return on investment of up 
to $21 for each $1 spent. Of course, the benefits of 
connectivity go far beyond the economic, bringing better health 
care to rural, conflict-affected, and other underserved areas, 
helping farmers cope with climate change, and connecting 
millions of children and young people to free online courses 
and learning materials. E-governance and social media are 
enabling citizens to participate more actively in civic life, 
while also streamlining delivery of public services, a move 
that, in Africa alone, could result in technology-related 
productivity gains of $10 billion to $25 billion annually by 
2025.
    Today, over 60 percent of the world's population, 
equivalent to 4.3 billion people, as was already said, remain 
offline, and these billions of people excluded from the life-
changing possibilities of the Internet are predominantly 
female, and nearly all in the developing world. Mobile 
broadband, the primary means by which most citizens in the 
developing world access the Internet, has been critical for 
expanding Internet access. Mobile broadband across the 
developed world is widely spread with penetration rates 
reaching nearly 90 percent. Yet, this rate dropped to about 17 
percent in Africa. This digital divide exacerbates existing 
economic and social inequalities, and stifles development 
across the globe by keeping women and other marginalized 
populations, those who arguably stand the most to benefit from 
an online connection, from accessing the empowering potential 
of the Web.
    While an entry-level broadband connection costs about 1 
percent of monthly incomes across the developed world, it costs 
about 10 percent for most in developing countries, and can 
reach over 100 percent of their incomes in many countries.
    High prices hit certain groups harder. Excuse me, high 
prices hit certain groups harder than others, and income 
inequalities mask the true scale of the problem in many 
countries. For billions living in poverty, earning less than $2 
a day, the cost of a basic broadband connection is prohibitive. 
Women are nearly 50 percent less likely to access the Internet 
than men in the same community. The Web Foundation study found 
that women are 30 to 50 percent less likely than men to use the 
Internet to increase their income, or to participate in public 
life. We need to change that. We need to change the gender gap. 
We need to work together to change the conditions in which 
women can have access to the Internet.
    Skills and relevance are also another barrier important to 
address. To boost economic growth, empower democratic 
governance, and advance global development, cannot be 
overlooked as a key component of U.S. foreign policy, and there 
is a huge potential for the Internet to have a role in that 
space. Here are some concrete actions that the U.S. Government 
can support and invest in: Support policy reform, based on 
inclusive multi-stakeholder processes that will lead to market 
growth and lower costs; coordinate broadband expansion 
strategies with development in the energy sector; invest in 
International Telecommunications Union, a U.N. agency, that 
does efforts to expand collection of gender indicators and 
support national statistics agencies to do the same; support 
the development of inclusive and holistic national ICT and 
broadband plans, that address all aspects of the access and use 
ecosystem; recognize barriers faced by women, and ensure 
privacy and safety online; education programs and consumer 
campaigns to increase awareness of the utility of the Internet, 
as well as training on basic skills and safety online will be 
critical to ensuring women can access and fully utilize a safe 
and open Web without any fear of retaliation. Incorporate 
digital skills education into education programs from primary 
school onwards. And finally, develop and support programs that 
provide public access and to target underserved populations.
    I look forward to our discussion here today and your 
questions. And I thank you again for this opportunity.
    [The prepared statement of Ms. Jorge follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
                              ----------                              

    Chairman Royce. Thank you, Ms. Jorge. Ms. Warner.

STATEMENT OF MS. JOYCE WARNER, SENIOR VICE PRESIDENT AND CHIEF 
      OF STAFF, INTERNATIONAL RESEARCH AND EXCHANGES BOARD

    Ms. Warner. Thank you, Chairman Royce, Ranking Member 
Engel, and distinguished members of the committee. On behalf of 
IREX, I am very honored to have the opportunity today to 
discuss our experience and the important relationship between 
women and information and communication technology in the 
developing world. I want to also thank my colleagues for their 
compelling remarks this morning. And I will try to--you may 
find some overlap because I think we have some similar 
recommendations.
    Since 1968, IREX has worked in over 125 countries to build 
just, prosperous, and inclusive societies, and we use 
technology across much of our programming. Our work is 
supported by the generosity of the American people through the 
U.S. Department of State, the U.S. Agency for International 
Development, as well as private donors, including the Bill & 
Melinda Gates Foundation and the Carnegie Corporation of New 
York. Our approach is to focus holistically on both IT access, 
but also broadening digital literacy. I know we talked a lot 
this morning about why the issue is important, including 
improving GDP, and we have also talked about the alarming 
disparity for women and girls, the overall less access to the 
Internet, less mobile ownership. I want to highlight also, 
though, that less training and exposure even where access is 
available, is an important factor creating the digital divide. 
And according to the 2015 World Wide Web Foundation report, 
women are 1.6 times more likely to report a pure lack of skills 
as a barrier to Internet use. And I think we would all agree 
that nations cannot develop and grow unless they engage their 
full human resource potential, and closing the gender digital 
divide will be key to achieving this.
    So I would like to share a few things of what we have 
learned at IREX. First, women and girls need safe public access 
points. We know that girls and women often choose public 
libraries because they are perceived as safe, reliable, and 
affordable. And we have partnered with the Gates Foundation in 
11 countries to turn public institutions, like libraries, into 
Internet access points. And we are pairing that with providing 
access and training librarians to support them.
    Second, it is really important to introduce girls to 
technology as early as possible, and definitely no later than 
their adolescence. The after-school tech clubs IREX has created 
in eight countries have helped girls gain digital skills with 
positive results into young adulthood, including increased 
confidence and employability. By supporting girls early on with 
digital literacy skills, we can help stem a lifetime of gender 
disparity.
    Third, we need to invest and support infomediaries, and by 
this, we mean trusted community members, teachers, librarians, 
other adults who can help coach and train both younger and 
older women to use technology effectively and positively. 
Infomediaries can also help them filter the massive amounts of 
information that is available. In addition to working with 
librarians, we have partnered with the State Department to 
expand the use of technology by master teachers from across the 
developing world, the overwhelming majority of whom have had no 
prior training in using instructional technology in the 
classroom. The goal is to make technology a regular part of 
learning and not only a special subject or an elective.
    And finally, we have learned that women also need to find 
relevant and valuable information to them, and that is both 
available in their local language, but in addition, it is 
information they can use in their everyday lives.
    In partnerships with USAID and a local Jordanian research 
organization, we have just recently launched a gender 
clearinghouse. This is the first of its kind in Jordan, and it 
is allowing women to access information on their human rights.
    The core of what we need to achieve gender parity in 
technology around the globe exists today, and so we have a few 
recommendations. First, we need to expand the notion of 
literacy to include digital literacy. ICT needs to be included 
in formal education. It is not a side subject. So while we used 
to have the three Rs, I think now we need literacy, numeracy, 
and digital literacy. We need them all working together, and we 
need to introduce that as early as possible.
    Second, we should prioritize investments in community 
institutions like schools and libraries where we can build on 
existing infrastructure for public access. For example, there 
are 320,000 libraries in the world, and 70 percent of them are 
in developing countries. Imagine if each was connected to the 
Internet, and staffed with a skilled infomediary to support 
Internet access by women and girls.
    Third, we need to balance the overall expanding of IT 
access with better digital literacy and skills, and ongoing 
coaching, so that women and girls can use this technology to 
better their economic, family, and life outcomes, so as to not 
inadvertently, without those skills, expand the divide rather 
than shrink it.
    And finally, we should look across all of the work we are 
doing in the U.S. Government and among our development 
partners, and make sure that everything we do is taking the 
gender digital divide into account. Whether we are working on 
health, or food security, or environmental issues, are we 
looking at everything, and making sure that we are addressing 
this wherever it is possible?
    And increasing mobile subscriptions alone will not actually 
purely equalize this gender divide. Governments, international 
agencies, nonprofits, and private enterprises need to work 
together. And I thank the committee for this opportunity.
    [The prepared statement of Ms. Warner follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Chairman Royce. I thank you, Ms. Warner. We thank all of 
our witnesses here.
    Let me start with a question that goes to this issue of how 
media itself portrays women working in the STEM fields. And my 
first thought here would be, because the studies that you have 
focused on here in industrialized nations, because that is 
rebroadcast out around the world, both are lesser 
representation on screen and off screen, probably impacts the 
number of women and girls interested in STEM in the developing 
world. And that is the essence of my question there.
    Ms. Davis. Absolutely. You are right. Eighty percent of the 
media consumed globally is made in the United States. My 
institute has also researched--done the first global gender-in-
film study, and it is--the representations are no better in 
foreign films as far as women in these fields. And the 
importance of it is, I can't overemphasize how powerful media 
images are. And they can be in both a positive and a negative 
way. For example, there being far too much stereotyping and 
hyper-sexualization of female characters. That is obviously 
negative. But if you show female characters doing 
nontraditional and important things, the message comes across 
clearly.
    The most interesting example I have of that is in our study 
of the careers of television female characters. One of the most 
well-represented professions was women in forensic science. 
There are so many female forensic scientists on TV because of 
the CSI shows and everything, that I don't have to work to get 
more representation there. And in real life, the numbers of 
women wanting to pursue this career has absolutely skyrocketed. 
I think about 75 percent of people wanting to study this field 
are female, and colleges are scrambling to keep up with the 
demand for the courses. So it just shows what I mentioned 
earlier, the words we live by is, ``If girls can see it, they 
can be it.'' Because we fail to have enough real-life female 
role models in these fields, in the STEM fields and ICT, we 
need them on screen so that girls can see that, and we need 
them in great numbers as well. We have to have boys and girls 
see that women are good at science and good at engineering and 
math, and that that is viable for them.
    Chairman Royce. I have another question here, and it goes 
to the use of technology.
    Some years ago, I passed an Anti-Stalking Act here, but as 
technology changes, we are now seeing it is not just the phone. 
It is access to the Internet as an area where what you might 
think might make women feel more secure, you also have the 
online stalking, the online hacking that threatens their 
security. So have you seen any evidence for the panel here, any 
evidence on balance that technology is decreasing the overall 
amount of harassment of women, or is technology just a neutral 
tool when addressing this cultural issue at the end of the day? 
What is your perception on that issue, and how can we impact 
it?
    Ms. Jorge. Thank you. So I am sure that everyone has 
something to share on that. I think one of the most important 
things to recognize, and a study by my colleagues at the Web 
Foundation just found this clearly through very in-depth 
research in 10 countries across the developing world, is that 
the realities and the inequalities that exist offline are 
normally transferred to the online world, including the 
challenges, the difficulties, the norms, tend to be duplicated 
online. And what we are doing the way we work, is to ensure 
that, first of all, that is not the case. And that the kind of 
policies, the kind of programs, the kinds of projects to 
empower women, not just through access, but the way they adopt, 
the way they use technology, first of all, are safe, but also 
are informed by policies that will protect women to do that 
safely, but always giving them the voice that they need, as 
women, to express freely and in an open way. And that is very 
important.
    So it is important that we have the right programs in place 
to not only support, to protect women, but it is not just about 
the online world. That is just a replication of the huge 
inequalities that around the world we need to deal with as well 
as in the offline world. So it leads us to think about are 
there disparities that we know exist, that Geena already 
mentioned, that Joyce mentioned in terms of education, in terms 
of the STEM fields, in terms of a woman's ability to have 
access to information, to understand their rights.
    In many countries in the developing world, the ability of 
women to understand and to use and act on their rights is very 
limited. And one thing that the online world and access to 
technology can do is allow women much faster and good access to 
information that they otherwise wouldn't have.
    And so in that way, we can use online platforms and the Web 
and technology to not only increase women's ability to have 
more access to information, understand their rights, act on 
their rights, and have more support to have their own agency as 
women in their own societies.
    Chairman Royce. Technology is going to be empowering. Mr. 
Sires. I am out of time, we will go to Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, and thank you for being 
here. This is a very important issue for empowering women in 
many of these countries. I was just wondering, when you talk 
about this stigma that in some of these countries have, women 
using the Internet, and getting good at it, would you call it 
jealousy, just from the male role in some of these countries, 
or what is actually the stigma that you are talking about? 
Anyone?
    Ms. Warner. I would mention, you know, stigma may be one 
element of it, but I think part of what we found effective is 
making sure that men, whether they are in a teaching role, 
whether they are in a family role, whether they are in a policy 
or employer role, understand the value broadly of the Internet 
for women. And so we have done some work with a partner in 
Nepal and India, in very rural areas, and looking at rural 
community centers, and women who did not normally leave the 
house. Once men were understanding more about how this might 
contribute economically, more financial transaction management 
for women, then I think once that was expressed and they 
understood that, then they were able to embrace the 
participation of women in technology more.
    Mr. Sires. Ms. Davis.
    Ms. Davis. I think a tremendous amount is attributable to 
unconscious gender bias. If everyone is raised in a culture 
that doesn't show that women take up half the space in the 
world, that doesn't show that women do half of the interesting 
things, men and women internalize an unconscious bias that most 
of us don't realize the extent of how much we have that. And so 
that needs to be overcome through education and through seeing 
women involved in this. But it is something that is inhibiting 
progress in so many sectors of society, and particularly in 
this one. So people just aren't aware of the unconscious bias 
they have against women in these kinds of positions.
    Mr. Sires. Yes. Ms. Jorge.
    Ms. Jorge. Thank you. I totally agree with my colleague 
witnesses. I would like to say that, you know, if you look at 
some of the recommendations that many of us have already made 
at this table, they very much lead to exactly that question. 
How do we change that? And how do we, through education, 
through targeted programs and projects that are addressing some 
of those inequalities, change that, those ideas, but also that 
reality, and allow women to express and to have new 
opportunities that they otherwise wouldn't have? And technology 
can have a role in that. So I would say that by bringing access 
that is meaningful, that is relevant to women's lives, that is 
relevant for them as economic agents, as social agents, as 
creators, as Geena mentioned, is extremely important. And women 
need to be supported to have those opportunities.
    Often, as we know, and in this country, we are very 
fortunate, but we are not at all at the point where we are 
supposed to be yet. Many programs, as you know, also in this 
country have supported women from embarking on STEM fields. And 
that is something that is also very needed everywhere; not just 
through the profession, but especially through cultural and 
social environments as well where some of these differences, 
the lack of role models, the lack of opportunities, have really 
kept women back. And we have a responsibility, not just as 
gender advocates, as I assume we all are, and I assume all of 
you are in this committee, to create opportunities for many 
more women to have those opportunities in their lives, being 
social agents, economic agents, as creators, whatever those 
women decide for their own lives. And that is really important. 
It is also their choice.
    We are here to create and we want to create opportunities 
for women to be able to act on the choice that they have with 
technology, however they would like to use it. But we need to 
make it relevant. We need to make it informed. We need to make 
the technology useful and meaningful. If we don't do that, we 
fail at what we are doing.
    Mr. Sires. Well, thank you. I always get jealous in my 
office when I have a staffer come in and teaches me how to work 
my computer, or work my phone. And to me, that is a jealousy 
factor that is not just in my office, but I think in some of 
these countries also, when they see a woman being so good at 
some of these gadgets. But I thank you very much for being 
here, and thank you for all of your information that you have 
given us. Thank you.
    Chairman Royce. Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Sires. Former prosecutor from Florida.
    Ms. Ros-Lehtinen. Be afraid. Thank you so much, ladies. 
Thank you for your testimony, and I apologize that I came late.
    So Ms. Davis, I wanted to ask you if you could give all of 
us late arrivals an overview about what your very interesting 
institute is doing. How do you gauge success? What are the 
metrics that you use to know that you are doing what you seek 
to achieve? So I apologize, but I am so interested in your 
work.
    Ms. Davis. Thank you. Yes, so I have been doing this about 
10 years. My institute has sponsored the largest amount of 
research ever done on gender depictions in children's media. 
And the reason I wanted the data was I wanted to be able to go 
directly to my colleagues in the industry. So rather than 
taking on the mantle of educating the public, because I have 
access to the creators of children's media, I can just go 
directly to them with this information. And it has proven to be 
invaluable.
    So many creators were simply not aware of how bereft of 
female presence the movies and television they made for kids 
was. In the area of television, we looked at all of the 
different sectors, prime time, and daytime, and reality, but 
children's programs has the worst ratio of male to female 
characters. And that is true in family film ratings, also have 
about the same ratio of male to female characters. And so they 
are shocked. They are absolutely shocked. And I think we can 
attribute that to everyone having the same unconscious gender 
bias. We were all raised on the same ratio of male to female 
characters.
    In film, the ratio of male to female has been exactly the 
same since 1946. So it is in all of us, this idea that women do 
not take up half the space in the world, and that they do not 
do half of the interesting things. And as we mentioned earlier, 
80 percent of the media consumed globally is created in the 
United States. So we are, in fact, responsible for exporting a 
very negative impression of women around the world.
    Ms. Ros-Lehtinen. And in the 10 years, excuse me, that you 
have had the institute and you presented this, have you seen a 
marked improvement? I know I have got three granddaughters, 6, 
3, and 1----
    Ms. Davis. Right.
    Ms. Ros-Lehtinen [continuing]. And sometimes I am just 
appalled by the shows that they watch.
    Ms. Davis. Right.
    Ms. Ros-Lehtinen. And they are supposedly on, you know, 
great kids-oriented stations.
    Ms. Davis. Right.
    Ms. Ros-Lehtinen. And it is just such a lopsided view of 
women's roles in the world.
    Ms. Davis. It really is. And the remarkable thing is how 
unconscious so much--people literally didn't think about this 
until we had the numbers. In fact, before I had the numbers and 
I spoke to people in my industry, very often they would say, 
oh, no, no, no, no, that has been fixed. That has all been 
fixed. And they would name a movie with one female character--
--
    Ms. Ros-Lehtinen. And then whip up another princess.
    Ms. Davis [continuing]. As proof that gender and equality 
had been fixed. So they were not aware that the populations 
were so bereft of female presence. And, so, there is definitely 
a shift in their consciousness, and we untapped a tremendous 
desire to do right by women and girls, but now they understand 
in what ways they need to do that. And we haven't been able to 
measure yet an increase in the percentage of female characters.
    As of 2014, it is still exactly the same. But I feel very 
confident predicting that within 5 years, the needle will move 
for the first time in nearly seven decades.
    Ms. Ros-Lehtinen. And the filmmakers and the TV show 
makers, they will realize that they have got a wonderful 
audience there. I mean, it will be good for their intake and 
box-office hits----
    Ms. Davis. Absolutely.
    Ms. Ros-Lehtinen [continuing]. And the ratings for TV 
shows, because parents are very well aware, not just moms, dads 
too----
    Ms. Davis. Right.
    Ms. Ros-Lehtinen [continuing]. They are very aware of the 
gender disparities that their kids are subjected to.
    Ms. Davis. Right.
    Ms. Ros-Lehtinen. So thank you for what you are doing, and 
thank you for the excellent research that backs up what you are 
saying. And I think that you will be seeing the fruit of your 
labors coming up in the coming years. I congratulate all three 
of you. Thank you so much for having this hearing, Mr. Royce. I 
am sorry that I came late. Thank you.
    Chairman Royce. Mr. Eliot Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman. Ms. Davis, thank you, 
again, for being here, and thank you to all of the witnesses. 
Ms. Davis, in 2012, you were appointed by the ITU as a special 
envoy to promote technology among women and girls, and you have 
done incredible work on gender in the media with your 
institute. How women and girls are depicted in the media, and 
entertainment industry, affects, of course, how they perceive 
their ability, talents, and their future prospects in life. So 
it is incredible work that you do.
    We have seen some progress on gender equality in the U.S. 
in the media. We have seen you as the role of the first female 
President on TV. I must say for the record, I would like to see 
a female President. No names mentioned. But obviously, there is 
more to do.
    Can you comment on the fact that it is important for women 
and girls to access information and communication technologies 
to end gender inequality and to empower them; but, it also 
seems to me that we need to encourage men and boys as well to 
change their perceptions of women's roles. So if you could 
comment on that, that would be great.
    Ms. Davis. Absolutely. Thank you very much. We find that 
the more hours of television a boy watches, the more sexist his 
views become. And that a girl's perceptions of what she can be 
in life goes down the more media she consumes. So it is a very 
negative and important message that comes through for children. 
We always emphasize that it is equally important for boys to 
see women and girls engaged in unstereotyped activities, to be 
engaged in the STEM fields.
    My theory of everything, and why I am focused on what kids 
see first, is that we are, in effect, creating a problem that 
we have to try to solve later on. We are instilling gender bias 
in boys and girls from the very first entertainments that they 
consume, and the first popular culture they are exposed to.
    So that is why I am so focused on what boys and girls see 
in the beginning. And it will change everything, I think, if we 
can have kids grow up free of these biases, that we would be 
looking at a different world when that happens. And that is why 
it is important around the world that we spread this message, 
and we show women and girls taking up the space that is 
rightfully theirs.
    Mr. Engel. You know, it is amazing because I even see it in 
my own kids who are now in their 20s and 30s, that some of the 
perceptions or things, not only in this issue, but in many 
issues that I sort of grew up with and saw around me, that they 
are--it is incredulous to them that such things can even exist, 
because they were raised in a different world----
    Ms. Davis. Right.
    Mr. Engel [continuing]. And so it is really important that 
we change those perceptions. Thank you.
    Ms. Davis. Thank you.
    Mr. Engel. Ms. Warner, our committee has held a few 
hearings that focus on women's and girls' access to education, 
and if you look at these global reports, they indicate that the 
gender gap in primary education is closing, but women and girls 
continue, obviously, to lag behind in education rates in parts 
of sub-Saharan Africa, the Middle East and South Asia, and the 
result of that is that 600 million women around the world are 
illiterate, which is nearly twice the number of men.
    So how do we go from promoting access to education to 
promoting digital literacy? Can we do both at the same time? 
And how important is it to introduce young girls to information 
and communication technologies at an early stage? Obviously, it 
is important.
    Ms. Warner. Thank you. I would make a couple of points. 
First, I think that there is no going back on the technology. 
So we have to find a way to integrate it. And one of the ways 
we found to be effective is to look at what are teachers using 
around instructional technology, and how are they engaging 
students across the subjects, so that it is not just about 
teaching it as a separate subject.
    The second point I would make is that as we look at long-
term engagement for women, and we have done a lot to increase 
access to primary education, that I think we are starting to 
see the challenges of not investing in secondary education that 
is stopping things at primary. And so to the extent we can both 
advocate for, and even with limited resources, invest in seeing 
that more women receive secondary education, and I should say 
quality secondary education, because I think, as we all know, 
just being in the classroom may or may not lead to educational 
outcomes.
    The World Wide Web Foundation has found that women who have 
had some secondary education are actually six times more likely 
to be online than women who have not had any secondary 
education. So I think the combination of not making it just a 
separate subject--now, that is to say, that we also agree we 
should expand the number of women in technology fields, in STEM 
fields, and make that investment. But, in addition to doing 
that, we need to make technology just not seem like something 
separate to daily life.
    Mr. Engel. Thank you. I see my time has expired. Thank you, 
thank you, all three of you, for your great testimony. Thank 
you, Mr. Chairman.
    Chairman Royce. Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate the 
panelists being here. And, you know, there is a paradigm shift 
going on. I am a veterinarian by trade, and I graduated in 
1983. And up to the 1970s, it was a male-dominated field. And 
when I went to vet school, it was about 65 percent male and 35 
percent female. Now it is about 10 percent male, 90 percent 
female, and it has changed. And I think a lot of professions 
have done that. And, I think, in large part, you know, what 
they see on television. So I commend you for doing that. And, 
of course, your role in ``The Long Kiss Good Night,'' you know, 
being a housewife that was a chef. I still remember that chefs 
do those things, you know. And that was a great movie, and I am 
sure that has inspired a lot of people.
    Ms. Davis. Hopefully not to become assassins.
    Mr. Yoho. A great movie. Anyway, what I have seen is, you 
know, when we look around, and when we have 60 percent or 
greater of the world's population as was mentioned, off the 
Internet, 4.3 billion offline, and primarily women, what 
experiences do you find with the illiteracy rate being that 
high in relationship to using the Internet?
    If you want to--start with you, Ms. Jorge. What do you see 
with that? I mean, is it hard to get people to transition over 
that, and what are you finding as far as problems?
    Ms. Jorge. Yes, it is, indeed, and education is a key 
variable that determines how women not only engage with 
technology, but use it in a way that is meaningful. So not just 
for receivers of information, a one-channel way of receiving 
information, but actually acting on the information that they 
can receive, that they can use, that they can learn from. And, 
in fact, you know, a recent study showed exactly that, and 
proved that, again, education, if you don't have that variable 
there, if it is not addressed, it really limits the way women 
can engage with information and technology.
    So, and that is why it is so important, and that for us, 
and for IREX, and so many, you know, colleagues like, you know, 
Geena's institute, to really focus on the education piece, 
because it is a key ingredient to make sure that when women 
have access, they can not only engage with that technology much 
more meaningfully, but they can also use that access in ways 
that will be more productive.
    Mr. Yoho. Let me ask you this: How much are you using the 
Internet for education,you know, like a classroom to bring the 
world experts to teach if--any of you have experience with 
that? And what are you seeing? Is it more productive than 
having in-room classrooms, or as an assistant to a person in a 
classroom? Anybody?
    Ms. Jorge. With the caveat that I am not an education 
specialist, I am, you know, an expert in policy and regulation. 
I have to say that from my experience, also as a mother, and 
doing a lot of research, and reviewing a lot of really good 
research by many of our partners, it is important to have both.
    Mr. Yoho. Okay.
    Ms. Jorge. There is never just one kind of curriculum that 
should just be focusing on technology or not. It is the 
combination, and using technology in a way that is useful for 
implementing the curriculum, for bringing skills up, et cetera. 
It is not that the technology is a silver bullet, but the 
technology is an extremely useful element for education to 
improve the quality----
    Mr. Yoho. It is a tool.
    Ms. Jorge. Exactly. But in developing countries, what is 
interesting, and it is important for us to highlight here, 
because we are focusing on international development questions. 
When there is very little education, or no access to education 
at all, it is extremely important that the Internet has become 
one platform to have access to information and educational 
tools that otherwise wouldn't be there.
    So the gaps and the realities of those environments are 
also quite different than, say, the environments that you would 
have here as privileged where our children go to schools where 
my children, all of them have access to either a Chromebook, or 
an iPad, or what have you.
    Mr. Yoho. Right.
    Ms. Jorge. Those are, you know, exceptions when you 
consider the entire world, and especially the developing world 
that we are focusing on, and the situation of women and girls 
in the developing world.
    Mr. Yoho. All right, let me go to Ms. Warner, because I saw 
her reaching for the button. Let me get a response from her.
    Ms. Warner. Thanks. I would say that technology, all by 
itself, is neutral. So really what is key from an educational 
setting is making sure that folks know how to effectively use 
the technology in a learning context. So that may be to either 
supplement with newer information in the STEM fields. We use it 
a lot with English language learning, so native speakers' 
voices can be brought in around the world.
    Mr. Yoho. Right.
    Ms. Warner. But I think the second issue is using it as a 
type of learning method. Does it engage more for project-based 
learning? Does it teach some of the critical skills, more than 
the rote learning that we want to see that are 21st century 
skills that so many employers around the world are seeing 
lacking?
    Mr. Yoho. Ms. Davis, do you have anything to add to that?
    Ms. Davis. No. No, you know, I agree with what they said. I 
am not an expert in that field, but it makes a lot of sense.
    Mr. Yoho. All right. Well, I appreciate it. I am out of 
time, and thank you for being here. And keep up the good work.
    Ms. Davis. Thank you.
    Chairman Royce. Bill Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. It is great to 
welcome a graduate of Wareham High School, in Massachusetts, 
Ms. Davis. And it is a pleasure to be here. I am in the next 
town over in Bourne, and I am sure we are all proud of your 
success and the work you are doing in this regard.
    I wanted to touch base on something I think is just as 
important too, and that is how important your work is for males 
and young men. I mean, a mother is a child's first teacher, and 
particularly in other countries in the world as well as 
domestically. Empowering mothers to have this information, to 
have this access, we have found with investments in USAID, that 
money is better served empowering women and mothers, because it 
goes better to the health of the children, the welfare of the 
child, but also the education of that child. So can you speak a 
little bit about how empowering this is for mothers--how it is 
for young boys having a mother that is more in a position of 
having these resources?
    Ms. Davis. Well, it is incredibly important. And like you 
said, the value of having a mother who is educated is not only 
important in their self-esteem, in their presence, but also, 
the more a mother is empowered, a woman will invest 90 percent 
of her income back into the community and to her family and to 
everyone's health and well-being. And so it is an incredibly 
powerful tool that we have to empower the mothers and the women 
in developing countries to have this knowledge, have access--
the more access to the knowledge that will empower them, the 
better.
    Mr. Keating. Yeah. I don't know if any of the other 
witnesses wanted to touch base on that?
    Ms. Jorge. Actually, I guess I could just share a story 
that one of our colleagues who is here in the room shared that 
I think is quite telling of that, and it is a story based on a 
case in Madagascar where women have put together a project to 
allow women to report gender-based violence using information 
and communications technology and using their mobile phones. 
And not only was it important for women, through the project to 
learn about their rights and report cases of domestic abuse, 
but their sons and their daughters became much more aware of 
the issues that their mothers were being faced with and the 
rights that their mothers had as mothers, and would remind them 
to report those cases of domestic abuse when they took place. 
Because they had the ability to have a tool that would allow 
them, and they would remind their mothers, you have the right 
to report and to not have to accept what is happening to you.
    And so that is a very powerful example of how not only the 
children, sons and daughters, can learn about the rights of 
their mothers, but their rights as children as well and see the 
potential that some of these new tools can provide to them as 
they engage as people in their own lives.
    Mr. Keating. Are you aware of any concerns to the--you 
know, this is an enormously powerful tool to mobilize people 
around a common cause, particularly internationally, but are 
you--not every country in this world, unfortunately, has the 
greatest of missions and purposes right now, and there are very 
oppressive governments and terrorist groups that are out there.
    Do you come across any concerns that in the hands of some 
of these countries or groups with deep packet technology, that 
they can identify who is using these kinds of technological 
tools and target them? And if that is the case, is there 
something we can do about that?
    Ms. Warner. Yes. I think that this is a concern, that some 
governments can use this as a way to oppress, to easily 
identify activists and others who may be trying to produce a 
counternarrative. I think one of the things we have found that 
is really important is in working with activists or journalists 
or others, is to make sure that our work includes really good 
skill building in digital security, that this is an important 
element for individuals to know.
    And just to add to that, there was a question about general 
harassment of women, not targeting of activists and others 
before. And I think in Iraq one of the cell phone companies has 
developed a special plan with, like, a bye-bye button to block 
callers who are harassing. So I think to the ability we can 
engage the mobile companies to understand what types of 
services would be female friendly, that that will both help 
them gain more customers, but also make the service have a more 
positive value.
    Mr. Keating. Okay. Thank you very much. I yield back.
    Chairman Royce. Matt Salmon of Arizona.
    Mr. Salmon. Thank you, Mr. Chairman.
    First and foremost, I want to go on the record agreeing 
wholeheartedly with Mr. Engel that Carly Fiorina could make a 
great President of the United States. Just having a little fun.
    Chairman Royce. I would just point out that Geena Davis 
played one.
    Mr. Salmon. And since Ted Yoho opened up the door on 
movies, I have two daughters. My oldest is 35, the other one is 
30. I think they get really angry for me telling their age, but 
they are both very well educated, very successful, and they 
would both be very thrilled to drive a convertible with Brad 
Pitt in the back.
    So, anyway, you have done some phenomenal work, Ms. Davis, 
raising the profile. Every father that has daughters wants 
exactly the same opportunities for his daughters that he does 
for his sons. I have two daughters and two sons, and I want the 
same thing for all of them. You said that in--maybe confronting 
is the wrong idea or wrong thought, but you have addressed with 
some of the leaders in Hollywood the disparity, and you have 
said that they have kind of referred by citing anecdotes of 
individual movies or productions. Are you making some headway, 
do you think, with them in general, and what are some of the 
things that we could do to maybe aid in that effort?
    Ms. Davis. Right. Thank you. Yes, definitely we are making 
great strides. I am really heartened by the response to the 
research. It was before we had the research that I found that 
people were, even creators of content, were unaware of how few 
female characters they were including in their products, but 
once they know or once they can engage with the research, they 
are very motivated to want to make change.
    We did a survey of everyone who has heard my presentation 
in Hollywood in our industry, and 68 percent said what they 
learned had changed two or more of their projects, and 41 
percent said it had changed four or more of their projects. So 
we are very excited about that. There is lots of movies and TV 
shows that have come out that we know that we have impacted. 
And it is something that is very simple. For example, we were 
at an animation studio, and I mentioned that in some G-rated 
films, crowd scenes are made up of only 17 percent female 
characters, and--you know, which makes no sense in the 21st 
century that we would be showing kids that much imbalance.
    And at the meeting, the head of the studio said, hey, 
guys--because it was 99 percent men around the table--could we 
just stop doing that? Could we just agree right here that we 
are going to make crowds 50 percent? And they all said, of 
course, because it was so unconscious. So I think a tremendous 
amount of our work is done simply by awareness. And as you 
suggested, it is not a confrontational way that I approach the 
studios at all, it is as a colleague in a very private and 
supportive environment, and we partner with them basically to 
bring it to the front of their minds, and it seems to be 
working, so I am very optimistic.
    Mr. Salmon. I think diplomacy is something we all need a 
little bit more of, and congratulations on that.
    Ms. Davis. Thank you.
    Mr. Salmon. Ms. Jorge, as access to the Internet increases 
around the globe, how can we leverage distance learning to help 
empower women and girls in the goal of increasing educational 
opportunities? Can we do more to encourage the development of 
country-specific distance learning in both basic education as 
well as university instruction? What specific steps would you 
recommend?
    Ms. Jorge. Yes, absolutely. Thank you for the question. As 
I said, you know, those specific target programs to help women 
and girls have access to education would be very important. It 
is also very important that education integrating technology 
starts very early on, and it is not just left at the primary 
level, as Joyce already made the case, but should continue and 
be very clearly expanded.
    I think actually the work of IREX and Joyce's, you know, 
team in education is actually quite relevant for your question, 
especially we are partners in some of the work that we do, and 
one of the reasons why is because we believe in the power of 
libraries and public access in developing countries to be not 
only centers of knowledge, centers of education, but also 
centers for people to have access to these opportunities that 
they otherwise wouldn't be able to have on their own.
    Because access is so important, the reality is, as you 
probably understand, it is very difficult, as it is now and 
especially despite the growth in the sector, to make sure that 
all populations are covered with the right type of coverage 
that Internet requires. And so because of that and because 
clearly competition and markets by themselves have not been 
able to ensure that everyone has access to a connection, let 
alone being able to have the income to afford a connection when 
that might be possible, it is very important that public access 
is there and it is strengthened to be way to not only bring 
education opportunities, but to strengthen the kind of 
education programs and projects that are out there.
    And I would say--I would really love Joyce to add to that, 
because IREX has done some really fantastic work in that area 
integrating the education field and needs with libraries as a 
platform to improve education.
    Ms. Warner. Thank you. I did mention that. I did want to 
actually add one thing that we are just starting to do now with 
Course Talk, which is kind of the Yelp of MOOCs, I don't know 
if they would say that is their official term, but that is how 
I describe them, and USAID, and that is, we are trying to look 
at what MOOCs are looking like in the developing world. This is 
research that is just starting.
    We are also partnering with the University of Washington 
Tascha Institute on this. And one of the things we are trying 
to figure out, and we have three countries we are looking at 
right now, Colombia, Philippines, and South Africa, is how are 
people engaging with MOOCs, how could they be used for 
development. Most people are showing that people who take MOOCs 
are trying to advance their careers, their employability. So 
what factors increase that, what are the challenges, what are 
some of the gender issues there. And I think the research is 
ongoing right now, so maybe it is more of a preview that this 
is something we are concerned about.
    I think that when you look at engaging women and really all 
learners online, the ability to combine blended learning can 
also be very effective. So what does that mean? Maybe folks are 
online and they are remote from the main educational 
institution providing it, but there is an infrastructure in 
place for them to meet together in their village, the same 
people who maybe are learning together, and how do you blend 
that in person with the online learning.
    Mr. Salmon. Thank you. I yield back.
    Chairman Royce. Thank you. We go now to Lois Frankel of 
Florida.
    Ms. Frankel. Thank you, Mr. Royce. And thank you so much 
for this hearing. I consider myself pretty well informed on 
women's issues, but I have to say, this is very shocking to me, 
and I thank all of you for being here, because I know I often--
every day I say to myself, how did we live without the 
Internet? It is really something.
    And, you know, even my own--my mother is 90 years old, and 
she loves her pink iPad. I mean, she is on that iPad all day. 
And, you know, my niece has this little 2-year-old, I don't 
think he is even 2 years old, and we go out and he grabs the 
phone and he is playing games. So it is just--it is--I will say 
it is pervasive, but--so, anyway, I have a few questions.
    I just want to say to Ms. Davis, I am a great fan. I am 
glad to see you are alive and well. I have been worried about 
you. I know you went over the cliff--I see you go over the 
cliff and then I think you just went blind and died on Grey's 
Anatomy. Did you live or did you die?
    Ms. Davis. Well, I didn't die. I only was--I had a----
    Ms. Frankel. Oh, you had the brain tumor.
    Ms. Davis [continuing]. A brain tumor and then I went 
blind, but I didn't die, no.
    Ms. Frankel. Okay. That is good. I couldn't remember. Well, 
I knew you had the brain tumor, and anyway, I was worried about 
you. But I am glad you are doing well.
    And so my first question is to you, which is how do you 
fight--with what you are doing with the media, where does the 
box office come in and how do you, you know, get around the 
fact that I am sure everybody--they look at the bottom line and 
making money?
    Ms. Davis. Yeah. Absolutely. So research shows that films 
about women or directed by women, are equally successful once 
you adjust for the budget, but it is something that people are 
hesitant to embrace. There is this belief in Hollywood that 
women will watch men, but men won't watch women, so our hands 
are tied. That is why I don't talk to them about making more 
female stars, I say whatever you are already making, add more 
women to the population. And the interesting thing is, there is 
a test called the Bechdel Test, which has a very low threshold; 
it is, are there at least two women who talk to each other 
about something other than men, and you would be amazed how 
many films do not pass this test. However, a study has shown 
that films that do pass that test make more money.
    So there is definitely evidence that adding more female 
characters is not only a good idea for our population, but is a 
profitable idea as well.
    Ms. Frankel. Thank you for that. Now, I have heard a couple 
of ideas for solutions, because I try to write them down. One, 
of course, is the whole media thing, Ms. Davis, that you talked 
about. But I heard you say expanding literacy to digital 
literacy, build on existing infrastructure, expand coaching 
opportunities.
    So my question is this, have you done an analysis at all of 
what, for example, USAID is doing? Is there a list of 
recommendations of how we--you know, the Congress can engage 
either with budgetary items or policy?
    Ms. Jorge. Yes. Thank you for the question. That is 
extremely relevant and exactly the reason why we are here. 
USAID has done some really fantastic work in supporting many of 
the programs that many of us are actually working on, both not 
through just NGOs, but also the private sector or private 
sector organizations, in trying to come up with better 
solutions to address this problem. Including addressing the 
kinds of systemic problems around the gender income gap and 
other kinds of inequalities that exist in society in general.
    But coming back specifically to ICTs and technology and 
access to the Internet, what can be done, what can be done 
better, and what can USAID and other agencies of the U.S. 
Government do to support that? A few things: One, give high 
priority to establishing time-bound targets for gender equity 
in ICT, access and use. There was an attempt to do that by the 
Broadband Commission at the U.N. level, a group that I was--you 
know, I was honored to be part of, in fact, inspired by a 
request by Geena here a few years ago. I am afraid to say that 
we haven't done much headway into that, and the reality is that 
the gap still exists and we don't see very clear gender equity 
in ICT access and use, but neither do we see it in the kind of 
policymaking that needs to be supported at the international 
level to ensure that not only gender analysis and gender 
considerations are included, but that policy is developed to 
address the gaps that exist.
    And so we have not made enough progress, and we need to, 
and it would be very important for the U.S. to have an 
important role to ensure that that moves and that we can 
actually move the needle and ensure that policies are focusing 
on women.
    Affordability is an issue. The fact and the reason why I 
mentioned income gap is that women across the world earn on 
average from 30 to 50 percent less than men. And by default, 
they are given a lot less opportunity, just from an income 
perspective, to be able to access, to purchase, to afford the 
kind of access that the Internet requires, and so that is a 
huge problem that needs to be addressed. And by reducing costs 
and reducing prices to the end users is very critical to make 
sure that the reality of women's lives, that we hope continues 
to improve, is recognized when developing policy. If you are 
developing policy for the average person that doesn't exist, 
obviously a large group of the population is going to be left 
out of the impact of that potential policy, especially if they 
start from a different point.
    It is also very important to work with civic women's groups 
to find ways that technology can enhance civic participation. 
One of the most empowering effects of technology and access to 
the Internet and the information that the Internet brings to 
women, is by allowing women to become more active citizens in 
their societies, with their governments, something that we here 
not only take for granted, but are able to exercise and enjoy 
the benefits of that benefit.
    Most women in developing countries don't have the ability 
to enjoy that, not only civic participation, but free and open 
civic participation without fear that their actions, their 
thinking, their ideas may not be retaliated against. And so we 
need to support that kind of civic engagement and civic 
participation by women and especially by women's groups that 
are much closer to the--live the realities of women in 
developing countries.
    And as some of our colleagues already mentioned, I would 
say always put women at the center of policymaking. Here we are 
in this room, people come in and out, but I can tell you I have 
been counting how many of you women policymakers have been on 
the bench, and there are very few of you, and if there were 
more, many more of these issues would be considered. It is no 
different in any other part of the world.
    When women are at the center of decisionmaking, issues are 
thought differently from a different perspective, they are 
imagined in new ways. And so more women at all levels of 
planning, development, policymaking is absolutely critical to 
ensure that those concerns come through in the final result of 
policymaking, in international development, in the kind of 
support that we as a government here in the United States can 
make international development, and the kind of impact that we 
want to see taking place as a result of our actions. Thank you.
    Ms. Frankel. Thank you very much.
    Chairman Royce. And, Lois, last month on our hearing on the 
anti-poaching bill, we had the academy award winner for best 
director, we had Kathryn Bigelow here, who directed ``The Hurt 
Locker'' and also directed ``Zero Dark Thirty,'' so----
    Alan, Alan Lowenthal.
    Mr. Lowenthal. From California. Thank you, Mr. Chair. And 
thank you, witnesses, for being here. And I apologize for 
coming a little late.
    Last night as I was going through preparing for this, and I 
know we are kind of looking at both developing and developed 
nations and kind of--I was shocked by something, and it was the 
last paragraph of the memorandum that was put out by the chair 
of the committee, where it said that in the United States, 
fewer women are now completing technology engineering degrees 
than what occurred 30 years ago. So there are fewer now, and 
half of all that enter technology companies leave them by mid 
career. These are staggering statistics, and it really just 
knocked me for a loop when I read that.
    And so what are we going to do from a policy standpoint 
here within the United States to really reverse this? Less than 
30 years ago: It is just a shock. And I just want to know if 
you can help us, as we begin to kind of grapple with this, both 
the idea of both access, but also retention. How are we going 
to deal with this issue, and--which is just shocking, 
absolutely shocking. And I ask for any help, me not knowing 
kind of where to go from here.
    Ms. Warner. So in full disclosure, it is not my personal 
expertise, but I would say----
    Mr. Lowenthal. Not mine either, so you can say anything you 
want.
    Ms. Warner. Okay. Thank you. I would say a couple things. 
One is I think many of the technology companies as they look at 
how their family policies and others are designed, and what it 
takes to advance and stay in the field is very important.
    There was a report done a few years ago by the Department 
of Commerce actually, that looked at women in STEM and what is 
going on and why people go in and study and then leave the 
field, and I think that that might be something that really 
looks at some of the patterns.
    Mr. Lowenthal. Are there some things that you remember from 
that, that really stand out----
    Ms. Warner. Yeah.
    Mr. Lowenthal [continuing]. Why we are going in the wrong--
we are not even talking about being flat, we are talking about 
going in the wrong direction?
    Ms. Warner. I don't remember if this was the number one 
reason, but I think a lot of it had to do with the scheduling 
and the work and being able to balance, once you had a family, 
the workload and the hours and----
    Mr. Lowenthal. I got it.
    Ms. Warner. Yeah.
    Mr. Lowenthal. Anybody else want to give some help?
    Ms. Davis. I would just say that I think there is so little 
encouragement for women in this field that--you know, there was 
a study at Yale not too long ago where they sent out resumes 
from--it was actually a woman's resume to apply for a position 
in the science department at colleges, and they--so they sent 
out identical resumes except the first name was changed on some 
of them to a male first name, and it turned out that the man 
got far more offers for a position at a higher salary and he 
was judged to be more likable and somebody that you would want 
to work with.
    So in the face of that, that your teachers from grade 
school on and your professors in college have bias against 
women in the STEM fields, it kind of makes sense that that is 
reflected in how many women pursue it, how many--you know, that 
we are not making--sorry we should have made--been building 
on----
    Mr. Lowenthal. That is right. Rather than building, we are 
going in the wrong direction.
    Ms. Davis. Right, right.
    Mr. Lowenthal. And that is what is so shocking. I can 
understand beginning to build, to deal with some of these 
issues----
    Ms. Davis. Right, right.
    Mr. Lowenthal [continuing]. But to be going in the wrong 
direction is just shocking.
    Ms. Davis. Yeah. We just need a cultural shift as far as 
this is concerned, and this hearing is bringing a lot of 
attention to it, which I think is very welcome.
    Mr. Lowenthal. Well, thank you. Any other thoughts?
    Ms. Jorge. I will just share a quick story----
    Mr. Lowenthal. Yes.
    Ms. Jorge [continuing]. A personal story that I think is 
telling of the realities that we face as parents, as citizens. 
I was looking just recently with my older daughter at different 
school options, and when I went to visit a particular school 
that I cannot disclose the name, I was asked--you know, my 
daughter is very interested in math and science, but also she 
is a musician. And so we were talking about her qualities, et 
cetera, and the kinds of things that she wanted to get out of 
the school. The assistant headmaster asked me, oh, so what does 
your husband do? What is his profession? And so I told her, and 
she carried on the conversation.
    And so my daughter asked me, she didn't ask you what you 
did? And so, you are right. So I turned back to the assistant 
headmaster and said, are you interested in what I do? And she 
was pretty shocked and kind of embarrassed, so much so that she 
tried to overcompensate in even more embarrassing ways. But the 
truth is that is the reality that we face, women, girls, face 
in many environments, including in what are, you know, largely 
perceived as very well educated, very important and nice 
schools, very privileged schools, I must say, and still the 
stereotypes and the kinds of things that we have to address are 
so ingrained, as Geena and Joyce have been saying, that are 
flabergasting.
    And so I can tell you that none of my daughters would ever 
go to that school until another person changes. But this is the 
reality that women and girls face on their daily lives 
regardless of where we are in the world, and in some places 
more so than others because of other issues. And so can we do 
something about it? We can, and that is why we are here. And I 
hope that you through your, you know, actions, through your 
policymaking, through your support in international development 
support programs that can help change these realities that 
should not exist.
    Mr. Lowenthal. And I think that is a wonderful reason for 
having this hearing, and I agree, but I think the narrative, 
just for us to be aware of just how serious the problem is in 
the United States, not just in developing nations when we are 
talking about developing nations, that we are going in the 
wrong direction real clearly, raises the red flag, that this is 
an amazing--you know, this is such an important area, that we 
need to be using our resources wisely, bringing all people into 
the system, and making sure that everyone really is able to 
function as we move forward.
    And the fact that we are losing women and not having them 
go into the most important professions, and the data is clearly 
going in the wrong direction, is really cause for great alarm, 
great alarm.
    Ms. Jorge. May I?
    Mr. Lowenthal. Yes.
    Ms. Jorge. I just want to add one more thing just so that 
we also complete the thought, is that I think it is also 
important to think of these issues not just from an overall 
gender perspective, but thinking of all the different kinds of 
women and men in the world from different backgrounds. Because 
the kinds of things that we are discussing in terms of 
inequalities based on gender are even more exacerbated for 
women and some men, but especially for women of different 
races, different socioeconomic groups. And they face even 
greater barriers and greater, you know, obstacles in their 
lives.
    And so it is important to not just be aware from a general 
gender perspective, which is clearly very important, but also 
to be very aware of other differences that affect the way 
people have access to opportunities, including their 
backgrounds, whatever that might be.
    Mr. Lowenthal. Thank you. And I yield back.
    Chairman Royce. Thank you, Congressman Lowenthal.
    And we will be incorporating the testimonies of our 
witnesses here in the legislation that we are writing in the 
committee.
    And we want to again thank our witnesses for their trips 
out here today and all the work they have put into this 
testimony. It is now part of the official record and will be 
part of our legislation.
    We stand adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
